Report No. D-2009-088          June 17, 2009




    Long-term Travel Related to the Defense
           Comptrollership Program
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CPO                           Comptroller Proponency Office
DCP                           Defense Comptrollership Program
DD Form                       Department of Defense Form
DFAS                          Defense Finance and Accounting Service
FICA                          Federal Insurance Contributions Act
IRS                           Internal Revenue Service
ITRA                          Income Tax Reimbursement Allowance
ODS                           Operational Data Store
RASS                          Resource Allocation Selection System
STANFINS                      Standard Finance System
SRD-1                         STANFINS Redesign Subsystem 1
WinIATS                       Windows Information Automated Travel System
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704




                                                                             June 17,2009

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Long-term Travel Related to the Defense Comptrollership Program
         (RepOli No. D-2009-088)


We are providing this repOli for review and comment. We considered comments from
the Assistant Secretary of the Army (Finandal Management and Comptroller) and the
Defense Finance and Accounting Service when preparing the final repOlt.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. Thc
comments from the Assistant Secretary of the Army (Financial Management and
Comptroller) were partially responsive and nom·esponsive. The Defense Finance and
Accounting Service comments were partially responsive to two recommendations.
Therefore, we request additional comments on recommendations A.I., A.2., B.I., and
B.2. by July 17,2009.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send management comments in electronic fOlma! (Adobe Acrobat file only) to
audelev@dodig.miL Copies of management comments must have the actual signature of
the authotizing offidal for your organization. We cannot accept the / Signed I symbol in
place of the actual signature. If you an-ange to send classified comments electronically,
you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the couttesies extended to the staff. Please direct questions to me at
(703) 604-8905.                                 .




                                             GiL~·
                                             Principal Assistant Inspector General
                                             for Auditing
                     Report No. D-2009-088 (Project No. D2008-D000FC-0260.000)
                                            June 17, 2009

               Results in Brief: Long-term Travel Related to
               the Defense Comptrollership Program

What We Did                                              See the Finding section for further details on the
Our audit objective was to determine whether             internal control weaknesses.
the DoD properly followed applicable
regulations for long-term travel associated with         What We Recommend
the Defense Comptrollership Program (DCP).               The Director, DFAS, should recover applicable
                                                         employment taxes and pay applicable employer
What We Found                                            taxes due to the Internal Revenue Service for
The Defense Finance and Accounting Service               DCP travel reimbursements for students
(DFAS) did not follow applicable regulations             graduating from 2002 through 2007. DFAS
for long-term travel associated with the DCP.            should also withhold employment taxes and
Specifically, DFAS did not withhold any                  issue Forms W-2 to future civilian students.
employment taxes from DCP long-term travel               Additionally, DFAS should retain DCP travel
(DCP travel) reimbursements for 60 Army                  reimbursement documentation for 6 years and
civilian students (students). According to a             3 months and also conduct periodic quality
DFAS representative, DCP travel                          assurance reviews to ensure that DCP travel
reimbursements are not taxable income.                   reimbursement documentation is properly
Additionally, DFAS did not provide complete              retained.
documentation to support DCP travel
reimbursements for 16 students because it                The Functional Chief Representative, CPO,
retains some DCP travel reimbursement                    should retain all DCP travel authorizations for
documentation at an archive facility. As a               6 years and certify that the DCP travel
result, DFAS did not deposit an estimated                authorizations are retained.
$803,195 in employment taxes with the
appropriate Federal and State tax organizations          Management Comments and
for students graduating from 2002 through 2007           Our Responses
(finding A).                                             The Director, Standards and Compliance,
                                                         DFAS, agreed with three recommendations and
The Comptroller Proponency Office (CPO)                  partially agreed with two recommendations.
could not provide complete DCP travel                    The comments were responsive to three
authorizations for 31 of 60 students because it          recommendations and partially responsive to
did not retain all DCP travel authorizations. As         two recommendations. The Functional Chief
a result, students may have been on DCP travel           Representative, CPO, disagreed with two
without proper authorizations (finding B).               recommendations. The comments were
                                                         partially responsive and nonresponsive. We
We identified internal control weaknesses as             request that the Director, Standards and
they related to the audit objective. Specifically,       Compliance, DFAS, and the Functional Chief
we identified internal control weaknesses                Representative, CPO, provide comments on the
related to the identification of taxable income          final report by July 17, 2009. Please see the
and the retention of DCP travel documentation.           recommendations table on the back of this page.

                                                     i
               Report No. D-2009-088 (Project No. D2008-D000FC-0260.000)
                                      June 17, 2009

Recommendations Table
Management                         Recommendations         No Additional Comments
                                   Requiring Comment       Required
Functional Chief Representative,   B.1. and B.2.
Comptroller Proponency Office,
Assistant Secretary of the Army
(Financial Management and
Comptroller)

Director, Defense Finance and      A.1. and A.2.           A.3., A.4., and A.5.
Accounting Service

Please provide comments by July 17, 2009.




                                              ii
Table of Contents

Results in Brief                                                    i

Introduction                                                        1

       Objective                                                   1
       Background                                                  1
       Review of Internal Controls                                 3

Finding A. DFAS Processing of DCP Travel Reimbursements             4

       Recommendations, Management Comments, and Our Response       6

Finding B. Army Retention of DCP Travel Authorizations              9

       Recommendations, Management Comments, and Our Response       9

Appendix. Scope and Methodology                                    12

       Prior Coverage                                              13

Management Comments

       Assistant Secretary of the Army (Financial Management and   15
        Comptroller) Comments
       Defense Finance and Accounting Service Comments             17
Introduction
Objective
Our audit objective was to determine whether DoD properly followed applicable
regulations for long-term travel associated with the Defense Comptrollership Program.
See Appendix A for a discussion of the scope and methodology related to the objective.

Background
In 1952, the Department of the Army (Army) established the Army Comptrollership
Program at Syracuse University, New York, to address Army Comptroller and financial
management educational needs. The Army later began extending the Army
Comptrollership Program to other Military Departments, Defense agencies, and U.S.
Coast Guard representatives. In 2006, the Army renamed the Army Comptrollership
Program to the Defense Comptrollership Program (DCP). The DCP is a 14-month
graduate program that combines business and public administration theories with the
realities of the DoD resource management environment. DCP students graduate with a
Master of Business Administration degree from the Whitman School of Management and
an Executive Master of Arts in Public Administration degree from the Maxwell School of
Citizenship and Public Affairs.

DCP Students
The DCP contained 162 DoD military and civilian students in the graduating classes of
2002 through 2007. Military students represent 60 percent of each class and generally
hold the rank of captain or major (pay grades O-3 or O-4). Military students attend the
DCP as a permanent change of station. 1 DoD civilian students represent the other
40 percent of each class. These students generally range from General Schedule grades 9
through 12 (equivalent to National Security Personnel System pay band 1 or 2) and attend
the DCP in a continuous long-term travel status. Long-term travel is any travel
assignment more than 180 consecutive calendar days. During the DCP classes of 2002
through 2007, 63 DoD civilian students graduated. Of these 63 graduates, 60 were Army
and 3 were Air Force civilian students.

Army Civilian DCP Travel Authorization Process
Because Army civilian students (students) are in a long-term travel status, they are
entitled to a per diem allowance when traveling away from their regular place of
business. 2 However, students are only entitled to 55 percent per diem for the DCP
because the training assignment is greater than 30 days. Students use the Resource
Allocation Selection System (RASS) to request training and long-term travel funds for
the DCP. RASS is a real-time, Web-based, life-cycle management system that


1
  A permanent change of station is the assignment, detail, or transfer of an employee to a different
permanent work assignment location.
2
  Per diem allowance is a daily payment for lodging, meals, and related incidental expenses.


                                                      1
centralizes management of funds for Army Civilian Training, Education, and
Development. Students access RASS and electronically complete a Department of
Defense Form (DD Form) 1556, “Request, Authorization, Agreement, Certification of
Training and Reimbursement,” 3 and DD Form 1610, “Request/Authorization for TDY
Travel of DoD Personnel.” The Comptroller Proponency Office (CPO), Assistant
Secretary of the Army (Financial Management and Comptroller) approves these forms in
RASS. RASS then generates a notification to the Army Civilian Training, Education,
and Development System Resource Management Office. The Army Civilian Training,
Education, and Development System Resource Management Office accesses RASS to
identify the long-term travel amount to certify the funds and then manually enters this
amount in the Resource Services Washington system. The Resource Services
Washington system then transfers the obligated fund amounts to the Standard Finance
System (STANFINS). STANFINS is the Defense Finance and Accounting Service
(DFAS) online finance and accounting system.

DFAS Reimbursement Processing for Students
DFAS Indianapolis was responsible for processing DCP long-term travel (DCP travel)
reimbursements for students in the graduating classes of 2002 through 2007. 4 Initially,
DFAS receives voucher documentation from students. The voucher documentation
includes an approved DD Form 1610 and a DD Form 1351-2, “Voucher or Subvoucher,”
to claim reimbursement for long-term travel. DFAS then enters the student’s travel
information into the Windows Integrated Automated Travel System (WinIATS).
WinIATS calculates the voucher amounts. DFAS then uploads all voucher information
to the Operational Data Store (ODS). Each night, ODS electronically transmits the
voucher amount and information to STANFINS Redesign Subsystem 1 (SRD-1). 5
SRD-1 interfaces with STANFINS to identify the obligation and then disburses the
reimbursement amount to the students. SRD-1 then transfers this disbursement
information to ODS, which maintains a disbursement history for DCP travel
reimbursements. DFAS personnel extract the disbursement information from ODS and
manually input it into WinIATS. DFAS then prints the reimbursement documentation
from WinIATS. It retains this hard copy and also scans a copy into the On Base
Information System for electronic storage.

Taxability of Long-term Travel Reimbursements
The Army notifies each student by a Letter of Instruction that DCP travel reimbursements
are taxable income. The Department of the Treasury, Treasury Financial Manual,
volume 1, part 3, chapter 4000, “Federal Income, Social Security, and Medicare Taxes,”
March 2005, requires employers to withhold, deposit, and pay Federal income taxes, as
well as the employee portion of Federal Insurance Contributions Act (FICA) taxes. 6
Employers must also pay the employer portion of FICA tax. Additionally, chapter 5000,


3
  On October 22, 2007, the Office of Personnel Management replaced the DD Form 1556 with the SF 182,
“Authorization, Agreement, and Certification of Training.”
4
  The processing of DCP travel reimbursements was transferred to Rome, New York during May 2008.
5
  SRD-1 is a disbursing and entitlements database system.
6
  FICA taxes consist of Social Security and Medicare taxes.


                                                 2
“Withholding of District of Columbia, State, City, and County Income for Employment
Taxes,” July 1992, requires employers to withhold, deposit, and pay State and local
income taxes from employees. Each student is also notified that income taxes paid on
long-term travel are reimbursable. The Joint Travel Regulation, volume 2, “DoD
Civilian Personnel,” chapter 4, “Employee Travel,” July 1, 2007, provides that an
employee is eligible for an Income Tax Reimbursement Allowance (ITRA) when they
pay Federal, State, and local income taxes on long-term travel reimbursements.
However, it also indicates that ITRA does not include reimbursement for FICA taxes.

Review of Internal Controls
We identified internal control weaknesses as they related to the audit objective.
According to a DFAS representative, DCP travel reimbursements are not taxable income.
DFAS and CPO also did not retain some DCP travel supporting documentation.
Implementing recommendations A.1., A.2., A.3., A.4., and A.5. will strengthen policies
and procedures to ensure that DFAS properly follows applicable regulations associated
with the DCP. Additionally, implementing recommendations B.1. and B.2. will
strengthen policies and procedures to ensure that CPO properly authorized students prior
to DCP travel. We will provide a copy of the final report to the senior official
responsible for internal controls in the Army and DFAS.




                                           3
Finding A. DFAS Processing of DCP Travel
Reimbursements
DFAS did not follow applicable regulations for long-term travel associated with the DCP.
Specifically, DFAS did not withhold any employment taxes from DCP travel
reimbursements for 60 students. According to a DFAS representative, DFAS did not
consider the reimbursements to be taxable income. Additionally, DFAS did not provide
complete documentation to support DCP travel reimbursements for 16 students.
According to a DFAS representative, DFAS did not provide the documentation because it
retains some DCP travel reimbursement documentation at an archive facility. As a result,
DFAS did not deposit an estimated $803,195 in employment taxes with the appropriate
Federal and State tax organizations for students from 2002 through 2007.

DoD Financial Management Regulation
DoD Financial Management Regulation 7000.14-R, volume 5, chapter 21, “Disbursing
Office Records,” March 2003, requires original disbursing office records and associated
papers to be retained and readily accessible for 6 years and 3 months.

DoD Financial Management Regulation 7000.14-R, volume 9, chapter 8, “Processing
Travel Claims – Other Than Defense Travel System,” March 2006, states that
reimbursements earned during a temporary duty assignment at one location for more than
a year are taxable income. It also requires the issuance of a Form W-2, “Wage and Tax
Statement” for these taxable reimbursements.

Tax Withholding on DCP Travel Reimbursements
DFAS did not follow applicable regulations for long-term travel associated with the DCP.
Specifically, DFAS did not withhold any employment taxes from DCP travel
reimbursements for 60 students. According to a DFAS representative, DFAS did not
withhold taxes on DCP travel reimbursements because it did not consider the
reimbursements to be taxable income. Students in the graduating classes of 2002 though
2007 received approximately $1.8 million for DCP travel. For example, during 2004 and
2005 an Army civilian graduate received a total of $29,073 in long-term travel
reimbursements for attendance in the DCP. DFAS should withhold Federal, State, and
local income taxes and the employee portion of FICA taxes from all employees’ earnings.
However, DFAS did not withhold any employment taxes on these payments. According
to the DoD Financial Management Regulation, reimbursements earned during a
temporary duty assignment at one location for more than a year are taxable income.
Because the DCP is a continuous, 14-month program, all travel reimbursements are
taxable income. Also, the Treasury Financial Manual requires employers to withhold
employment taxes, and the DoD Financial Management Regulation requires the issuance
of a Form W-2. DFAS is responsible for withholding employment taxes and issuing
Form W-2 on all taxable income for DoD employees. Therefore, DFAS should withhold
employment taxes for DCP travel reimbursements and issue the Form W-2 to future
civilian students.




                                           4
Retention of DCP Travel Reimbursement Documentation
DFAS did not provide complete documentation to support DCP travel reimbursements
for 16 students. For 13 students, even though DFAS was able to provide a list of
disbursements, it did not provide supporting documentation for all disbursements. For
the remaining three students, DFAS did not provide any disbursement documentation.
According to a DFAS Indianapolis representative, DFAS did not provide the
documentation because it retains some DCP travel reimbursement documentation at an
archive facility. However, after several attempts to obtain the documentation, DFAS still
did not provide the travel reimbursement documentation. The DoD Financial
Management Regulation requires DFAS to retain and make readily accessible disbursing
office records and associated papers for 6 years and 3 months. DFAS should retain DCP
travel reimbursement documentation. DFAS should also conduct periodic quality
assurance reviews to ensure that DCP travel reimbursement documentation is retained for
6 years and 3 months.

Taxes Deposited for DCP Travel Reimbursements
DFAS did not deposit an estimated $803,195 in employment taxes with the appropriate
Federal and State tax organizations for students graduating from 2002 through 2007.
DFAS must deposit Federal, State, and local income taxes, as well as the employee and
employer portions of FICA taxes, on employees’ earnings. Specifically, DFAS should
have deposited an estimated $448,485 in Federal income taxes with the Internal Revenue
Service (IRS) for the students’ long-term travel reimbursements. U.S. Federal income tax
is a progressive tax that taxes a larger percentage of income from high-income groups
than from low-income groups. Also, DFAS should have deposited an estimated
$113,946 in State income taxes with the New York State Department of Taxation and
Finance for DCP student travel reimbursements. According to the New York State
Department of Taxation and Finance guidelines, students are part-year residents of New
York. We also verified with a New York State Department of Taxation and Finance
representative that DCP students are part-year residents of New York and should pay
New York income taxes on all long-term travel reimbursements. New York income tax
is also a progressive tax, ranging from 4 percent to 7 percent. Additionally, DFAS should
have deposited an estimated $240,764 in FICA taxes with the IRS on DCP travel
reimbursements for students. The employee and employer pay a matching portion of
FICA. Since 1990, the tax rate for Social Security has been 12.4 percent, with the
employee and employer paying equal portions of 6.2 percent. The tax rate for Medicare
has been 2.9 percent, with the employee and employer paying equal portions of
1.45 percent. DFAS should have deposited an estimated $120,382 each for the employer
and employee portions of FICA taxes from DCP travel reimbursements for students.
Therefore, DFAS should recover applicable employment taxes from students graduating
from 2002 through 2007. DFAS should also pay the IRS the employer portion of FICA
taxes due on DCP travel reimbursements.

Because DFAS did not withhold any employment taxes, the students are responsible to
pay employment taxes on DCP travel reimbursements. Each student is notified that per
diem reimbursements of more than one year are taxed as ordinary income and that
income taxes paid on long-term per diem are reimbursable. We identified 6 of 60


                                            5
students that paid income taxes because they received ITRA reimbursements. The other
54 students may have paid income taxes, but DFAS could not provide documentation
supporting ITRA reimbursements. Many of these 54 students hold management positions
within the DoD. They may also hold security clearances and professional certifications.
The willful failure to pay income taxes on DCP travel reimbursements could result in the
disqualification of a security clearance or the loss of a professional certification. We
requested that the Defense Criminal Investigative Service review whether the 54 students
paid employment taxes on long-term travel reimbursements.

Management Actions
After the issuance of the draft report, DFAS provided additional documentation to
support DCP travel reimbursements. In the draft report we stated that DFAS did not
provide complete documentation to support DCP travel reimbursements for 18 students,
but is has since provided additional travel reimbursement documentation for 2 students.
As a result, DFAS did not provide complete documentation to support DCP travel
reimbursements for 16 students.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, Defense Finance and Accounting Service:

       A.1. Recover applicable employment taxes from students graduating from
2002 through 2007.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, partially agreed with our recommendation. He
stated that taxes may still be owed for tax years 2006 and 2007. He stated that when
DFAS does not withhold applicable taxes from payments, the students are responsible for
paying them and that DFAS will contact the students who attended DCP in 2006 and
2007 to determine whether they paid the employment taxes when they filed their tax
returns. If not, DFAS will collect the employment taxes and pay the IRS. DFAS will
also issue a Form W-2 to these students. However, he added, because there is a 3-year
statute of limitations regarding the adjustment of employment taxes, it is not appropriate
to attempt to collect employment taxes from the former students for tax years 2002
through 2005. This action will be completed within 90 days of confirmation from the
students whether employment taxes were paid.

Our Response
The Director, Standards and Compliance, comments were partially responsive. We agree
with the proposed actions that DFAS is taking for the students who attended DCP in 2006
and 2007. We also recognize that title 26, United States Code, Section 6501,
“Limitations on assessment and collection,” provides for a 3-year statute of limitations on
the assessment and collection of taxes. However, there are exceptions to this statute.
There is a 6-year statute of limitations on the assessment and collection of taxes when an
individual omits an amount greater than 25 percent of gross income. There is no statute


                                            6
of limitations if an individual does not file a return, files a false or fraudulent return, or
makes a willful attempt to evade taxes. Therefore, DFAS should review the facts
pertaining to each student from 2002 through 2005 to determine whether any exceptions
apply and the appropriate corrective actions. We request that the Director, Standards and
Compliance, reconsider his position and provide additional comments on the final report.

      A.2. Pay the Internal Revenue Service the employer’s portion of Federal
Insurance Contributions Act taxes due on Defense Comptrollership Program travel
reimbursements for students graduating from 2002 through 2007.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, partially agreed with our recommendation. He
stated that for tax years 2006 and 2007, the employer is responsible for paying the
employer portion of Federal Insurance Contributions Act taxes. He stated that DFAS will
coordinate with the activities funding the travel, because DFAS is only the paying agent,
not the employer. He added that the 3-year statute of limitations applies and eliminates
any tax liability for tax years 2002 through 2005. This action will be completed within
90 days of determination of the students affected and coordination with funding
activities.

Our Response
The Director, Standards and Compliance, comments were partially responsive. We agree
with the proposed actions that DFAS is taking for the students that were in DCP during
2006 and 2007. We also recognize that title 26, United States Code, Section 6501,
“Limitations on assessment and collection,” provides for a 3-year statute of limitations on
the assessment and collection of taxes. However, there are exceptions to this statute that
apply to the employer portion of Federal Insurance Contributions Act taxes. There is a
6-year statute of limitations on the assessment and collection of taxes when an individual
omits an amount greater than 25 percent of gross income. There is no statute of
limitations if an individual does not file a return, files a false or fraudulent return, or
makes a willful attempt to evade taxes. Therefore, DFAS should review the facts
pertaining to each student from 2002 through 2005 to determine whether any exceptions
apply and the appropriate corrective action. We request that the Director, Standards and
Compliance reconsider his position and provide additional comments on the final report.

        A.3. Withhold employment taxes from Defense Comptrollership Program
travel reimbursements and issue Form W-2, “Wage and Tax Statement,” to future
civilian students.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, agreed and stated that procedures are in place
to make appropriate deductions from current and future students and to issue appropriate
Forms W-2. This recommendation is considered closed as of April 2, 2009.




                                              7
Our Response
The Director, Standards and Compliance comments were responsive and conform to
requirements; no additional comments are needed.

       A.4. Retain all Defense Comptrollership Program travel reimbursement
supporting documentation for 6 years and 3 months, as required by the DoD
Financial Management Regulation 7000.14-R, volume 5, chapter 21, “Disbursing
Office Records,” March 2003.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, agreed and stated that since March 2003,
regulations and local guidance have been in place requiring the recommended retention.
The Director considers this recommendation to be closed.

Our Response
The Director, Standards and Compliance, comments were responsive and conform to
requirements; no additional comments are needed.

       A.5. Conduct periodic quality assurance reviews to ensure that Defense
Comptrollership Program travel reimbursement documentation is retained for
6 years and 3 months.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, agreed and stated that DFAS would add the
requirement to perform periodic quality assurance reviews to the DFAS Travel Pay
Operations, “Annual Statement Required under the Federal Managers’ Financial Integrity
Act of 1982,” Appendix A, Internal Control Matrix, to ensure that travel reimbursement
documentation is retained for 6 years and 3 months. He stated that corrective action
would be completed by July 1, 2009.

Our Response
The Director, Standards and Compliance comments were responsive and conform to
requirements; no additional comments are needed.




                                           8
Finding B. Army Retention of DCP Travel
Authorizations
The Comptroller Proponency Office, Assistant Secretary of the Army (Financial
Management and Comptroller) could not provide complete DCP travel authorizations for
31 of 60 students. The Comptroller Proponency Office did not retain all DCP travel
authorizations. As a result, students may have been on DCP travel without proper
authorizations.

Retention of DCP Travel Authorization Documentation
CPO could not provide documentation that authorized DCP travel for students. To travel
to the Syracuse University campus to participate in DCP, each student must prepare a DD
Form 1610. CPO could not provide complete DD Forms 1610 for 31 of 60 students
graduating from 2002 through 2007. CPO could not provide documentation because it
did not retain all DCP travel authorizations. CPO conducted an extensive search but was
unable to locate the missing DCP travel authorizations. The National Archives and
Records Administration General Records Schedule 9, “Travel and Transportation
Records,” April 2003, states that travel authorizations and vouchers, and other related
supporting documents, must be retained for 6 years. CPO should retain DCP travel
authorizations and also certify these records are retained for 6 years.

Travel Authorizations of Students
Students potentially were on DCP travel without proper authorizations. Because CPO
could not provide complete DD Forms 1610 for 31 of 60 students graduating from 2002
through 2007, these students may have been on unauthorized long-term travel.

Recommendations, Management Comments, and Our
Response
We recommend that the Functional Chief Representative, Comptroller Proponency
Office, Assistant Secretary of the Army (Financial Management and Comptroller):

       B.1. Retain all Defense Comptrollership Program travel authorizations for
6 years, as required by the National Archives and Records Administration General
Records Schedule 9, “Travel and Transportation Records,” April 2003.

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Functional Chief Representative, CPO, disagreed with our recommendation. She
stated that she agrees that CPO should keep copies of all the DCP documentation.
However, she does not agree that this should be a finding against CPO. She believes that
it should be an unofficial recommendation. The Functional Chief Representative believes
that the Deputy Chief of Staff, G1, should retain all DCP travel authorizations for 6 years
as required by the National Archives and Records Administration General Records
Schedule 9, “Travel and Transportation Records,” April 2003. The National Archives



                                            9
and Records Administration General Schedule 9 states that the movement of persons is
documented by copies of travel orders. The two primary copies of travel orders are the
administrative copy maintained by the transportation unit controlling the authorization of
travel and the copy used for encumbrance of funds.

Additionally, the Functional Chief Representative stated that the DoD Financial
Management Regulation, volume 9, chapter 2, paragraph C, requires that the authorizing
official be appointed in writing and be responsible for determining the necessity of trips
and funds availability, authorizing travel, assigning the proper line of accounting prior to
authorization, and approving/certifying travel claims for validity after completion of
travel. The authorizing official also should be the individual who controls the mission,
authorizes the trip, and controls funds for temporary duty travel. The Functional Chief
Representative stated that the Deputy Chief of Staff is the authorizing official on the
DD Form 1610 for the DCP. Only the Deputy Chief of Staff can authorize the travel and
obligate the funds, because it has not decentralized the funds to the Functional Chief
Representatives. If the Deputy Chief of Staff does not authorize the document in
Resource Allocation Selection System, the students cannot attend the training.

Our Response
The Functional Chief Representative, CPO, comments were partially responsive. The
Functional Chief Representative agreed that she should keep copies of all DCP
documentation, to include travel authorizations. We also believe that CPO should retain
all DCP travel authorizations for 6 years. CPO has ultimate responsibility for the
oversight and management of the DCP and approval of all DCP travel authorizations.
CPO controls the DCP mission, determines the necessity for travel, and approves the DD
Form 1610, “Request/Authorization for TDY Travel of DoD Personnel,” by signing it as
the approving/directing official. CPO must approve all DCP travel for civilian students
prior to the Deputy Chief of Staff certifying travel funds. The students cannot attend the
DCP without the approval of CPO. Additionally, the National Archives and Records
Administration General Records, Schedule 9, does not preclude CPO Office from
retaining travel authorizations. Therefore, we believe that CPO should retain all DCP
travel authorizations for 6 years. We request that the Functional Chief Representative
reconsider her position and provide additional comments on the final report.




                                             10
       B.2. Certify that the Defense Comptrollership Program travel authorizations
are retained for 6 years.

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Functional Chief Representative, CPO, disagreed with our recommendation. She
stated that she agrees that CPO should keep copies of all the DCP documentation. The
Functional Chief Representative believes that the Deputy Chief of Staff, G1, should
certify the retention of all DCP travel authorizations for 6 years.

Our Response
The Functional Chief Representative, CPO, comments were nonresponsive. The
Functional Chief Representative agreed that she should keep copies of all DCP
documentation, to include travel authorizations. We also believe that CPO should retain
all DCP travel authorizations for 6 years. Therefore, CPO should certify that it retains all
DCP travel authorizations for 6 years. We request that the Functional Chief
Representative reconsider her position and provide additional comments on the final
report.




                                            11
Appendix. Scope and Methodology
We conducted this performance audit from August 2008 through March 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To review DCP travel, we evaluated the long-term travel process for 60 Army civilian
students graduating from 2002 through 2007. We did not review the three Air Force
civilian students because they did not represent a significant population of DCP civilian
students. We contacted representatives from the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer; Office of the Assistant Secretary of the
Army (Financial Management and Comptroller); DFAS Civilian Pay; DFAS Travel Pay
Operations; and Syracuse University.

To accomplish the audit objectives, we performed the following tasks.

      We met with representatives from CPO to gain an overall understanding of the
       DCP process and RASS. We obtained class rosters for DCP students in the
       graduating classes of 2002 through 2007. We also obtained the budget and
       authorization documentation available for the students. Specifically, we obtained
       the Request for Central Resource Support Forms, Competitive Professional
       Development Requirements Plans, DD Forms 1556 and 1610. We compared
       budgeted amounts to authorized amounts to identify excessive travel
       authorizations.

      We met with personnel from DFAS Travel Pay Operations located in
       Indianapolis, Indiana and Rome, New York to gain an overall understanding of
       the processing of DCP travel reimbursements. We obtained and reviewed all
       available DCP travel disbursement history and DD Forms 1610 and 1351-2 for
       students. We reviewed this documentation to identify the total amount disbursed
       to each student graduating from 2002 through 2007. We also obtained ITRA
       documentation for all 6 students that applied for reimbursement.

      We contacted representatives from DFAS Civilian Pay in Columbus, Ohio and
       Indianapolis, Indiana to obtain all Forms W-2 issued to 60 Army civilian students.
       DFAS obtained the Forms W-2 from the Defense Civilian Payroll System. We
       reviewed the Forms W-2 to identify the earnings subject to taxes. We used the
       earnings to identify tax rates and determine estimated employment taxes on DCP
       travel reimbursements. We did not calculate local income taxes on DCP travel
       reimbursements.




                                            12
      We contacted a representative from Syracuse University to gain an understanding
       of his role and responsibilities in the DCP.

Use of Computer-Processed Data
To perform this audit, we used data from RASS, STANFINS, WinIATS, ODS, SRD-1,
On Base Information System, and the Defense Civilian Payroll System. Each year, DoD
Office of Inspector General auditors conduct general and application control tests on the
Defense Civilian Payroll System. We determined data reliability on the other systems by
comparing long-term travel authorizations and reimbursement documentation to system
information and recalculated per diem entitlements. These assessments indicate the data
was sufficiently reliable to accurately reflect the travel payments for the purpose of our
review.

Prior Coverage
No prior coverage has been conducted on long-term travel related to the DCP during the
last five years.




                                            13
14
Assistant Secretary of the Army (Financial Management
and Comptroller) Comments




                   Click to add JPEG file




                                  15
Click to add JPEG file




               16
Defense Finance and Accounting Service Management
Comments




                  Click to add JPEG file




                                 17
Click to add JPEG file




               18
Click to add JPEG file




               19
20
